National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001


                                             July 24, 2007

TO:            Director, Marshall Space Flight Center

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on Marshall Space Flight Center’s Approach to
               Establishing Product Data Management and Mechanical Computer-Aided
               Design Software Tools as Standard Center-Wide (Report No. IG-07-013;
               Assignment No. S-07-001-00)


Product Data Management (PDM) and Mechanical Computer-Aided Design (MCAD)
software tools play a critical role in NASA’s implementation of the President’s Vision for
Space Exploration. A PDM is an information system used to manage data (e.g., plans,
geometric models, MCAD drawings, images, as well as all related project data, notes and
documents) for a product as it passes from engineering to manufacturing. MCAD is a
computer-based toolset that assists engineers, architects and other design professionals in
their mechanical design activities.

PDM and MCAD tools are in use at all NASA Centers. The annual investment in PDM
and MCAD support approaches $2 million a year for Marshall Space Flight Center alone.
Moreover, these software tools are critical to the integrity of data underpinning NASA
programs and projects. PDM and MCAD products are available from several vendors.
Although many aspects of PDM and MCAD applications are similar, regardless of
vendor, each vendor product has inherent differences in applications, user interface, and
interoperability with other vendor products. The scope of PDM and MCAD requirements
across the Agency and the requirement for Centers to collaborate and share engineering
data increases the importance of employing an objective selection process for PDM and
MCAD products to ensure the most effective and efficient collaborative exchange with
minimal risk of data loss or misinterpretation.

On August 23, 2006, we reported on “NASA’s Acquisition Approach Regarding
Requirements for Certain Engineering Software Tools to Support NASA Programs”
(Assignment No. S-06-012-00), an Office of Inspector General (OIG) review conducted
in response to complaints regarding NASA’s standardization of software tools. We
found that the allegation was credible and determined that the Agency was taking action
to establish PDM and MCAD software tools of one vendor (Parametric Technology
Corporation [PTC]) as the de facto NASA standard without an Agency-wide technical
assessment and analysis to justify and support this standardization as required by NASA.
As a result, we recommended that the Office of the Chief Engineer (OCE) expand a
NASA Engineering and Safety Center (NESC) study to encompass an Agency-wide
assessment of PDM and MCAD requirements and determine whether any PDM and
                                                                                        2



MCAD products should be established as standard. In response to our recommendation,
the OCE issued guidelines for the selection of MCAD tools used in the design and
development of space systems in the OCE’s “Information for the Selection of Mechanical
Computer-Aided Design (MCAD) Tools” report, dated January 26, 2007.

After our August report, we received additional complaints that the Marshall Space Flight
Center (Marshall) was trying to establish PDM and MCAD software tools from one
vendor, again PTC, as the standard for Space Exploration Vehicle design at the Center.
The complaints alleged that the Center did not conduct a risk analysis for the PDM or an
assessment or risk analysis for the MCAD, as required by NASA’s Procedural
Requirements (NPR) for software used in human space flight systems. Establishment of
an MCAD tool as a standard without an assessment or risk analysis might cause data
translation and integration errors with NASA projects, Centers, and contractors using
other MCAD tools and, consequently, cause substantial unanticipated expense associated
with correction of unforeseen issues. In response to those complaints, we conducted this
review of PDM and MCAD software at Marshall. See Enclosure 1 for details on the
review’s scope and methodology.

Executive Summary
We found that Marshall had assessed three PDM products in April 2002. The assessment
included an analysis of the technical, integration, and licensing factors for each product
and resulted in recommending and selecting PTC’s Windchill as the primary PDM for
Marshall engineering. However, we also found that the July 2005 selection of PTC’s
Pro/Engineer (ProE) as the standard MCAD for new flight system designs was made
without an assessment or risk analysis. In addition, the selection process did not, in
accordance with NASA requirements, take into account customer and other stakeholder
requirements and operational requirements (or, of course, the NASA OCE’s 2007
Agency-wide assessment of PDM and MCAD requirements). We found this to be in
conflict with established Agency policy requiring a robust assessment and risk analysis of
alternatives. Therefore, we recommended that Marshall suspend efforts to establish PTC
products as standard and allow design engineers to continue to use UniGraphics
Solutions, Inc. (UGS), PDM and MCAD software pending an assessment and risk
analysis of the Windchill PDM and ProE MCAD software implementation, in accordance
with the OCE guidance and in compliance with applicable NPRs.

Specifically, our March 7, 2007, draft of this memorandum recommended that the
Marshall Center Director direct the Marshall Director of Engineering to (1) suspend all
activities associated with the archiving and migration of data from UGS’s Teamcenter to
PTC’s Windchill and allow design engineers to continue to use UGS PDM and MCAD
software (at current version levels) for new projects and (2) conduct the required
assessment and risk analysis of the Windchill and ProE implementation, in accordance
with NPR 7150.2, “NASA Software Engineering Requirements,” September 27, 2004,
and NPR 8000.4, “Risk Management Procedural Requirements,” April 25, 2002, and
incorporate OCE guidance for the selection of MCAD tools for major space systems.
                                                                                        3



In response to our draft memorandum, management provided comments on our findings
and conclusions and nonconcurred with our recommendations, stating that the suspension
of archiving and migration activities and the continued use of UGS software tools impact
schedule and risk. Management also stated that further risk analysis of the Windchill and
ProE implementation is not required because requirements in NPR 7150.2 and
NPR 8000.4 were not applicable.

We recognize that a completed technical assessment and risk analysis may result in
showing that the selection of PTC software as the standard MCAD for Marshall is
appropriate. However, management’s comments are not responsive because Marshall
engineering officials were unable to provide us risk management (RM) data that
supported their assertion that continued use of UGS PDM and MCAD software or
suspending archiving and migration would increase risk. We also disagree with
management’s statement that requirements in NPR 7150.2 and NPR 8000.4 are not
applicable. Documentation provided by Marshall engineering officials showed that ProE
was selected in July 2005; the effective date of NPR 7150.2 was September 27, 2004.
The July 2005 ProE MCAD selection was the beginning of the MCAD standardization
process at Marshall, which involves software acquisition, maintenance, and operations.
Paragraph 2.3 of NPR 7150.2 states that it is applicable to software development,
maintenance, operations, management, acquisition, and assurance activities started after
its effective date of issuance. Also, paragraph 2.1 of NPR 7150.2 covers software created
or acquired by or for NASA, including commercial off-the-shelf (COTS), Government
off-the-shelf (GOTS), modified off-the-shelf (MOTS), open source, reuse, legacy, and
heritage software. NPR 7150.2, paragraph 4.2.1, states that projects should identify,
analyze, plan, track, control, communicate, and document software risks in accordance
with NPR 8000.4, “Risk Management Procedural Requirements.” Therefore, both
NPR 7150.2 and 8000.4 are applicable to the ProE standardization.

Additionally, we identified specific translation issues when converting UGS MCAD
models into ProE MCAD and vice versa that further support the need to manage MCAD
risks in accordance with NPR 8000.4. Specifically, translation of UGS NX and other
MCAD models into ProE and vice versa resulted in unreported import errors and added
complexity. Our review of documents showed that ProE MCAD software, for instance,
has “Single Solid” modeling limitations that could increase model complexity with
additional individually tracked components (parts) and assembly layers required to model
the same item, as depicted in the figure on page 11.

In addition, based on the documents that we reviewed, we determined that the cost of just
the translation (ignoring other costs, such as training, analysis, integration, and
verification) of UGS MCAD model files of the Ares booster first stage (from one vendor)
would cost more than $9 million. In the interest of good stewardship, an expenditure of
this magnitude should be premised on a robust analysis of MCAD product variants and
capabilities prior to investment.

Although we appreciate the time Marshall management has taken to comprehensively
address the issues and concerns raised by our review, we do not consider management’s
                                                                                         4



comments to be responsive. We request that management reconsider its position and
provide additional comments in response to this final memorandum.

Background
The Marshall Director of Engineering is responsible for all engineering activities at
Marshall, including the activities of the Engineering Programs and Systems Office. The
Marshall Engineering Directorate established the Integrated Engineering Capabilities
(IEC) Project, part of the Engineering Programs and Systems Office, to improve the
management of data and to streamline and integrate engineering software systems at
Marshall. The IEC Project team is responsible for the development and implementation
of PDM and MCAD tools used in support of flight system designs at Marshall.

PDM software is used to improve management of the engineering process through better
control of engineering data, activities, changes, and product configurations. Information
stored and managed in PDMs includes MCAD models and drawings as well as associated
documents such as requirements, specifications, manufacturing plans, assembly plans,
test plans, and test procedures.

MCAD software is used for detailed engineering of 3-dimensional models and or
2-dimensional drawings of physical components. MCAD tools are used throughout the
engineering process from conceptual design through development and manufacturing.

Marshall’s Selection of MCAD Software Was Not in Compliance with NASA
 Procedural Requirements
NASA’s policy on software engineering and risk management for project activities
associated with human space flight systems are included in two NPRs: NPR 7150.2,
“NASA Software Engineering Requirements,” and NPR 8000.4, “Risk Management
Procedural Requirements.” NASA programs and projects, at all levels, are expected to
comply with applicable NASA NPRs.

Software Selection Criteria. NPR 7150.2, “NASA Software Engineering
Requirements,” September 27, 2004, provides the minimal set of requirements
established by the Agency for software acquisition, development, maintenance,
operations, and management. NPR 8000.4, “Risk Management Procedural
Requirements,” April 25, 2002, provides the requirements and information for applying
risk management to programs and projects, as required by NPR 7120.5C, “NASA
Program and Project Management Processes and Requirements,” March 22, 2005.

       Software Requirements. NPR 7150.2, paragraph 3.1, states: “Requirements are
based on customer, user, and other stakeholder needs and design and development
constraints. The development of requirements includes elicitation, analysis,
documentation, verification, and validation. It is important that there is ongoing
customer validation of the requirements to ensure the products meet the customer needs.”
                                                                                          5



Paragraph 3.1.1.2 requires that each project “identify, develop, document, approve, and
maintain software requirements based on analysis of customer and other stakeholder
requirements and the operational concepts.”

        Risk Management. NPR 8000.4, paragraph 2.2, outlines the process for
identifying the risks (technical and programmatic) specific to a project. Project managers
should identify individual risks and clearly describe those risks in terms of both the
undesirable event the risk presents as well as the consequences of that event to the
project. Project managers should develop a statement of risk for each identified risk.
Risks should be summarized, and the actions taken to mitigate or accept the risks should
be documented.

On January 26, 2007, the OCE issued “Information for the Selection of Mechanical
Computer-Aided Design (MCAD) Tools” as guidelines to assist Centers in their selection
of MCAD tools for the design and development of major space systems. Those
guidelines state that several factors should be evaluated when selecting an MCAD tool,
including the complexity, interoperability, security, training, and the intended use of the
tool.

Assessments and Risk Analyses. In April 2002, the IEC Project assessed three PDM
products: Teamcenter, developed by UGS; Product Data Exchange, developed by Oracle;
and Windchill, developed by PTC. The assessment included an analysis of technical,
integration, and licensing factors of each PDM. The IEC Project assessment resulted in
the recommendation and selection of Windchill as the primary PDM for Marshall
engineering. However, this assessment did not include a risk analysis or recommendation
for a primary MCAD tool.

Subsequent to the selection of Windchill, engineering officials at Marshall began to
eliminate the option of using Teamcenter. Design engineers were requested to archive
and migrate all data resident on Teamcenter to Windchill. To facilitate the elimination
process, Marshall engineering officials restricted the use of UGS MCAD software on
new design projects and limited UGS MCAD users to technically obsolete version levels.

During March 2005, the Marshall Deputy Center Director asked Marshall engineering
officials to determine if there were a common set of MCAD tools that could be used at
the Center. The IEC recommended and selected ProE as the standard MCAD for
Marshall in July 2005, without an assessment or risk analysis as required by NPRs 7150.2
and 8000.4. At the time IEC selected ProE, Marshall engineers were using a number of
different MCAD tools to support flight system designs. In November 2005, after
accepting the position, the Marshall Director of Engineering stated that he concurred with
the recommendation to establish ProE as the standard MCAD tool at Marshall, even
though the required assessment and risk analysis had not been performed.

Our review of user logs showed that the Marshall Vehicle Engineering (EV) Branch is
the largest MCAD user group at Marshall, and EV Branch officials stated that any
standardization of MCAD tools without an adequate assessment or risk analysis could
                                                                                          6



lead to unexpected data translation and integration errors when interfacing with NASA
projects, Centers, and contractors using “non-ProE” MCAD tools. For example,
documents we reviewed show that the design and manufacture of the human-rated solid
rocket motors used for Shuttle launches and for the Ares crew launch vehicles are
modeled using UGS MCAD tools and will require translation, integration, and other
forms of analyses after the data is input into Windchill. However, establishing PTC’s
MCAD as standard without an assessment or risk analysis means users may not be aware
of the translation and integration problems that might be introduced, thus increasing the
level of risk. A robust analysis of translation impacts would likely identify translation
deficiencies among MCAD vendors and allow development of compensation protocol in
advance of transition. If translation deficiencies are not fully known and acknowledged,
data elements may be lost and become unrecoverable subsequent to full transition
between products.

In addition, officials in the EV Branch said they were not given an opportunity to provide
substantial input during the ProE selection process, noting that their input was limited to
five PowerPoint slides at the November 2005 Engineering Management Council meeting,
which occurred approximately 4 months after the ProE selection. In the five PowerPoint
slides presented, the EV Branch manager showed that EV had begun installing the PTC
MCAD and training people in its use. He also presented concerns that switching to the
ProE software would immediately deprive EV engineers of their top-down design
capabilities, which in turn would delay designs and variations, hamper design/model
reusability, and preclude adjusting numerous parts with a single edit, thus leading to at
least a doubling of the overall design time. The presentation also showed the schedule
for restoring these capabilities to the engineers was about 1 year, noting that the schedule
was “success oriented” and that “technical issues with ProE may draw out this process
development.” NPR 7150.2, paragraph 3.1.1.2, states that a project shall “identify,
develop, document, approve, and maintain software requirements based on analysis of
customer and other stakeholder requirements and the operational concepts.”
Paragraph 3.1 states that it is “important that there is ongoing customer validation of the
requirements to ensure the end products meet the customer needs.” The five-slide
presentation at the Engineering Management Council meeting does not meet the intent of
NPR 7150.2.

NPR 7150.2 provides specific requirements for the acquisition and integration of
software used in support of human space flight systems and notes that requirements
should be based on user and other stakeholder needs. The risk management process, as
provided in NPR 8000.4, is an organized, systematic decision-making process that
efficiently identifies, analyzes, tracks, controls, communicates, and documents risk to
increase the likelihood of achieving program and project goals. Compliance with both of
these NASA requirements is essential to sound program and project management and
vital to safety and mission success.
                                                                                             7



Management’s Comments on the Finding and Evaluation of Management’s
 Comments
The Associate Director, Marshall Space Flight Center, provided comments on our
findings and conclusions in addition to our recommendations. Following is a summary of
management’s “Specific Comments” (see Enclosure 2 for the full text of management’s
comments).

Management’s Comments. Management stated that decisions to use PTC’s PDM tools
at Marshall were made in 2002 and were based on trade studies of products from three
different vendors, including PTC and UGS. The PDM and MCAD selections in question
were made 3 years apart in completely separate decision processes with unique business
drivers.

Management pointed out that when Marshall decided to use ProE for the majority of its
in-house design efforts in 2005, the Center already had experienced years of using many
different MCAD tools, including ProE and UGS software. Management stated that the
Marshall IEC team went to great lengths to establish and maintain customer and
stakeholder requirements, to include weekly IEC stakeholder meetings. The meetings
were open to all interested parties to address concerns, establish requirements for new
areas of development, and validate implementation approaches. In 2004, the affected
design groups were provided an opportunity to vet and validate their requirements.

Marshall cites the current NPR 7120.5D, dated March 6, 2007, as being clear that the
requirements are applicable to “current and future NASA space flight programs and
projects,” noting that this excludes the IEC PDM and MCAD initiatives because they are
not space flight initiatives. Marshall quoted NASA Policy Guidance (NPG) 7120.5A,
NPG 8000.4, and NPR 7150.2 to further support its position that the requirements are not
applicable (see Enclosure 2, pages 3 and 4). The citations included the following:

   •   “This document . . . shall be used specifically for programs/projects that provide
       aerospace products or capabilities, i.e., provide space and aeronautics, flight and
       ground systems, technologies, and operations. It is not required but may be used
       for other projects, such as nonflight infrastructure . . . or Research & Analysis
       projects.” (NPG 7120.5A, paragraph 2.2)

   •   “This document provides the basic processes and requirements for the planning
       and implementation of the RM process . . ... It shall be used specifically for
       programs/projects that provide aerospace products or capabilities. ... It is not
       required for other projects (such as research conducted under the Generate
       Knowledge Crosscutting Process or training and education conducted under the
       Manage Strategically Crosscutting Process); however, the RM concepts and
       practices described within this document may be beneficial to other projects, so
       their application should be considered.” (NPG 8000.4, paragraph 2.2)
                                                                                          8



   •   “This NPR shall be applied to software development, maintenance, operations,
       management, acquisition, and assurance activities started after its effective date of
       issuance [September 27, 2004].” (NPR 7150.2, paragraph 2.3)

Marshall noted that, in regard to NPR 7150.2, the PTC PDM development activity had
begun in 2002 and that ProE tools were in use prior to the PTC PDM selection.

Management took exception to our statement suggesting that Marshall engineering
officials “limited UGS MCAD users to technically obsolete version levels,” noting the
IEC requested that neither UGS nor PTC MCAD software be upgraded until the newer
versions could be supported by the data management system because upgrades that are
not compatible with information technology architecture will add risk and reduce
functionality and efficiency. Management also stated that the IEC did not make any
recommendations or decisions to move toward ProE as the in-house MCAD tool. The
rebalancing of UGS and ProE MCAD was presented to the Engineering Management
Council (EMC), where managers from every department and lab heard all sides of the
issue and evaluated the impacts, including risk. Management stated that the EMC
decided to proceed with the transition. The decision of the EMC was not well received
by all and an appeal was made to the OCE. The NASA Chief Engineer enlisted the help
of the NASA Engineering Safety Center (NESC). The NESC made several
recommendations, and Marshall engineering took steps to address those
recommendations.

Management stated that concerns about data translation and integration of disparate
MCAD tools was one of the significant drivers behind the decision to move toward ProE
for future in-house design work. Management’s comments also stated that ProE was
selected because most other NASA Centers that Marshall interacts with were using ProE,
as were contractors for current Orion and Ares design efforts. Marshall gave an
illustration of the risk added by the use of UGS MCAD, stating that the current vehicle
integration being performed at Marshall, which was initiated in UGS MCAD, requires
integrating MCAD data for the Marshall Upper Stage (ProE), Johnson Space Center
Crew Exploration Vehicle (ProE), J2-X engine (ProE), and First Stage (I-DEAS)—more
conversions of ProE into UGS MCAD than other potential conversion scenarios and,
hence, introducing more risk. Management added that this conversion scenario has also
rendered integrated models that are unusable for Kennedy Space Center design groups
using ProE.

Management’s comments noted that Marshall had been using ProE, UGS, and many
other MCAD tools for years prior to the decision in 2005 to use ProE as the primary
MCAD tool. Management stated that the decision was not an attempt to eliminate UGS
but rather to rebalance use to current needs, adding that Marshall continues to use UGS
and ProE MCAD tools as necessary to satisfy design needs. Management reiterated that
the IEC team continues to work with all affected design groups, including those in the
Spacecraft and Vehicle Systems Department, to address stakeholder requirements,
processes, format, and terminology concerns.
                                                                                      9



Evaluation of Management’s Comments. We agree that the Marshall IEC’s decision to
use PTC’s PDM tools was based on trade studies of three different vendors’ products and
that the PDM and MCAD selections in question were made 3 years apart in completely
separate decision processes with unique business drivers. However, the point of our
report is that the selection of PTC’s ProE as the standard MCAD for new flight system
designs was made without an assessment or risk analysis. It has been 5 years since
PTC’s Windchill was selected as the standard PDM at Marshall and 18 months since
ProE was selected. PDM and MCAD capabilities have changed significantly since these
selections were made. We believe it would be prudent for management to identify and
document risks associated with the selection of ProE MCAD as the standard in
accordance with NPR 7150.2 and NPR 8000.4 requirements.

We also agree that Marshall mandated the use of ProE for the majority of its in-house
design efforts for new projects in July 2005. However, we disagree that the IEC went to
great lengths to establish and maintain customer and stakeholder requirements.
Documents prepared by the IEC show that the IEC Project did not begin to identify
stakeholder requirements until September 2005, approximately 2 months after ProE was
selected as the standard MCAD software for new flight design projects. Further, EV
officials stated that they were not included in the decision to establish ProE as the
standard MCAD software for Marshall. Based on our review of 2005 Monthly Usage
Reports, we determined that the EV Branch was the largest MCAD user group at
Marshall. Management contends that NPR 7150.2 does not apply because “the PTC
PDM development activity began in 2002 and ProE MCAD tools were in use prior to the
PTC PDM selection.” But management also states that Marshall “decided to use ProE
for the majority of its in-house design efforts” in 2005, which confirms that the
standardization of ProE began in 2005—after the September 2004 effective date of
NPR 7150.2. In addition, engineering officials reaffirmed the MCAD transition decision
in November 2005 during an EMC meeting. Paragraph 2.3 states that NPR 7150.2 shall
be applicable to software development, maintenance, operations, management,
acquisition, and assurance activities started after its effective date.

We disagree with management’s assertion that IEC PDM and MCAD initiatives are
excluded from NASA program requirements because they are merely an “infrastructure
enhancement.” MCAD models are used in support of human space flight systems; they
are used for detailed engineering models and drawings of physical components for
project activities that support human space flight systems. For example, flight safety
decisions, including Flight Readiness of the Space Shuttle, depend on these MCAD tools
for evaluating safety critical in flight contingencies. All NASA programs and projects
are expected to comply with any applicable NPR. The requirements applicable in each
NPR should flow down to lower level project activities managed by designated
responsible organizations. The IEC Project was responsible for acquiring and
implementing the Windchill PDM and the ProE standardization in direct support of the
President’s Exploration Vision at Marshall. Therefore, NPR 7150.2 applies directly,
since paragraph 2.1 covers software created or acquired by or for NASA, including
commercial off-the-shelf (COTS), Government off-the-shelf (GOTS), modified off-the-
shelf (MOTS), open source, reuse, legacy, and heritage software. Also, NPR 7150.2
                                                                                        10



requires compliance with NPR 7120.5C and NPR 8000.4 as they apply to the acquisition
and use of software, particularly software used in support of human space flight.

In addition, NPRs 7120.5C and 7120.5D show four major factors to be considered in
project development—schedule, cost, technical performance, and risk. Applicable
guidance for risk management is contained in NPR 8000.4; paragraph 2.2 outlines the
process for identifying the risks (technical and programmatic) specific to a project, to
include summarizing identified risks and documenting the actions taken to mitigate or
accept the risks. Compliance with this NASA requirement is essential to sound program
and project management and vital to safety and mission success.

Management stated that the IEC recommended limiting upgrades of all MCAD packages
until it could be validated that newer applications or upgrades to existing applications
were compatible with the data management system. However, OCE’s guidance,
“Information for the Selection of Mechanical Computer-Aided Design (MCAD) Tools”
states that an evaluation of defined Agency and Center information technology
architectures should be made that focuses on compatibility with and duplication of
existing tools when making any new tool decisions. If a new PDM tool is chosen that
duplicates pre-existing PDM functionality but is incompatible with existing MCAD tools,
the new PDM could limit upgrades to existing MCAD tools, forcing the pre-existing
MCAD tools to obsolete levels. This is why we recommended performing a risk analysis
in accordance with NASA requirements. A risk analysis would help Marshall identify
risks and other issues that may be associated with Windchill/ProE standardization. Also,
OCE guidance states that factors to be evaluated when selecting an MCAD tool include
complexity, interoperability, security, training, and intended use. Priorities have to be
weighed to decide the most important factors upon which to base a tool selection
decision. Ultimately, an assessment of all appropriate factors will lead to cost and risk
determinations that can help establish an overall value of the product under consideration.

Management stated that the Marshall EMC made the decision to transition to ProE.
However, we disagree, since the Marshall EMC did not receive its charter until
November 2005, approximately 4 months after ProE was selected. The Marshall Deputy
Center Director and the Director of Engineering, who serves as the EMC Chair,
confirmed that the IEC had the responsibility for identifying and selecting a standard
MCAD tool for flight design and stated they did not know how the decision to transition
to ProE was made. Management also stated that the ProE decision, which was not well
received, resulted in an appeal to the OCE, which solicited help from the NESC.
However, the OCE request was not vetted through the NESC Review Board and a full
independent technical assessment was not conducted by the NESC. In addition, the
engineering officials at Marshall were unable to provide us with any documentation that
they had implemented the resulting NESC recommendations.

Management also stated that data translation and integration of disparate MCAD tools
was a significant factor considered in selecting ProE. However, management was unable
to provide any documentation identifying the factors considered in the ProE selection.
Management also stated that most of the other NASA Centers and contractors for the
                                                                                              11



Orion and Ares design efforts were using ProE. However, we noted that Johnson was the
only NASA Center standardized on ProE when the selection was made and that NASA
contractors were using a combination of UGS and PTC products. In addition,
management was unable to provide documentation to support its conclusion that more
conversions introduce more risk, which management illustrated with the vehicle
integration being performed at Marshall that required more conversions of ProE into
UGS MCAD because it had been initiated in UGS. Further, a count of the number of
models being translated one way or the other does not adequately address the potential
risk of data translation and integration. We also found risks inherent in standardization
on any single tool solution. According to Dr. Jaroslaw Sobieski, who is considered an
expert in Multidisciplinary Optimization Design and a colleague at NASA, “tools are
constantly being improved so what do you do when a new or better tool comes to the
market after you standardize?” He therefore suggested NASA use the best tool available
at a given point in time, while at the same time keeping in-house proficiency with the
continuous evolution of competing tools.

Additionally, the following figure illustrates an example that we found of a potential risk:
the increased likelihood of data translation and integration errors due to a variance in the
number of parts that may be encountered when translating models created with
UGS MCAD software (NX) into ProE and vice versa.

        The ProE Single Solid Limitations can Increase Model Complexity.




  79 NX Parts
                                                  156 ProE Parts




           79 parts were needed for an NX model of a Transfer Stage; ProE needed 156 Parts.


Our review of documents showed that ProE MCAD software, for instance, has “Single
Solid” modeling limitations that could increase model complexity with additional
individually tracked components (parts) and assembly layers required to model the same
item, as depicted in the figure above. Although the simplified Transfer Stage above
could be accurately modeled when translated from NX MCAD to ProE MCAD, the
extra 77 parts (156 parts minus 79 parts) needed to successfully model this solid item
in ProE MCAD software must be individually identified and managed. Additional
configuration management, storage resources, and computer processing power might
be required for a ProE MCAD model, and if modifications to this model are needed for
                                                                                          12



integration or re-design, more work might be required to appropriately change every
affected part. This additional complexity could increase the likelihood of one or more of
the parts in the ProE model becoming inaccurate during translation and integration. On
the other hand, more manual effort may be required using UGS NX when placing a
pattern of features on a solid surface than might be required using PTC ProE. These
translation issues underscore the critical need for a risk analysis.

In addition to considering the technical risks in translations to ProE, costs associated with
translation, training, analysis, integration, verification, and problem resolution deserve
objective analysis. Documents received so far indicate that just the translation of MCAD
model files for the Ares booster first stage alone would cost more than $9 million dollars.
These risks, and others, are why it is critical for management to identify and document, in
accordance with NPR 7150.2 and NPR 8000.4 requirements, all risks associated with the
selection of ProE MCAD as a single standard for Marshall. Compliance with both of
these NASA requirements is essential to sound program and project management.

Finally, we agree with management that Marshall had been using ProE, UGS, and many
other MCAD tools for years before the decision to use ProE as the standard. However,
we disagree with the assertion that the IEC team worked with all affected design groups
to address stakeholder requirements, processes, and format and terminology concerns.
As discussed in this memorandum, officials in the EV Branch stated that they were not
included in the decision to establish ProE as the standard MCAD software for Marshall.
The EV Branch is the primary user of MCAD tools at Marshall. However, documents
prepared by the IEC Project Manager show that Marshall did not start to collect
stakeholder requirements until September 2005, approximately 2 months after the MCAD
selection was made. As a result, ProE was selected before stakeholder and operational
requirements were fully identified and understood.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Recommendation 1. The Marshall Center Director should direct the Marshall Director
of Engineering to suspend all activities associated with the archiving and migration of
data from Teamcenter to Windchill and to allow design engineers to continue to use UGS
PDM and MCAD software (at current version levels) for new projects.

   Management’s Response. Management nonconcurred, stating that suspending all
   activities associated with the archiving and migration of data from Teamcenter to
   Windchill and allowing design engineers to continue to use UGS PDM and MCAD
   software (at current version levels) for new projects would significantly impact
   schedule and risk. Management also stated that the IEC team worked closely with
   existing projects that house UGS data in the Teamcenter PDM to confirm the level of
   support required to manage the data and that all groups but one indicated they have
   no need to retain active UGS data files and preferred to have their data archived
   rather than migrated to the Design and Data Management System (DDMS). The
   Associate Director, Marshall Space Flight Center, stated that remaining data would be
                                                                                    13



moved after an acceptable approach is established for transitioning the data and that
any newly defined UGS initiative can use DDMS to manage its data.

Evaluation of Management’s Response. Management’s planned action is not
responsive to the recommendation because management cannot support the assertion
that allowing continued use of UGS PDM and MCAD software for new projects
would significantly impact schedule and risk. We also disagree with management’s
assertion that the IEC team worked closely with existing projects. Interviews with
Marshall engineering officials indicated that UGS PDM and MCAD software
products were in use at Marshall long before the ProE selection, and the IEC Project
Manager and Marshall engineering officials have not provided any RM data to
support their assertion that continued use of UGS PDM and MCAD software would
increase risk. The NASA guidance states that software requirements should be based
on customer, user, and other stakeholder needs. Management’s statement that only
one group needs active UGS data files is not a substitute for analytical reasoning in
accordance with NASA guidance. In this instance, the one group in question is the
largest user group, so taking that group’s needs into consideration is of significant
importance.

Management’s assertion that use of UGS PDM and MCAD software would
significantly impact schedule and risk is also refuted by information provided by EV
design engineers. They indicated that UGS products had been very effective and they
questioned the reasonableness of eliminating UGS software. Documentation
provided by the EV engineers indicated that UGS PDM and MCAD software was
selected and used after a thorough technical evaluation process that included experts
from across the Center. Furthermore, Marshall engineering officials excluded the use
of UGS MCAD software on new design projects in 2005, the same time period that
readers of “NASA Tech Briefs: Engineering Solutions for Design and Manufacture”
voted UGS MCAD software the “2005 Product of the Year.” NASA Tech Briefs are
official NASA publications and have the largest circulation of any engineering
magazine in the United States. EV design engineers also disagreed with excluding
UGS products and stated that the unique capabilities of Teamcenter have been
essential in meeting the schedule for the Crew Launch Vehicle System Requirements
Review and would be key factors in meeting the schedule for the upcoming Crew
Launch Vehicle System Design Review and Preliminary Design Review.

Management’s assertion that the IEC team worked closely with existing projects to
confirm the level of support required to manage the data is refuted by statements from
officials in the EV Branch who said they were not given an opportunity to provide
input into the decision to standardize MCAD software. Based on our review of 2005
Monthly Usage Reports, we determined that the EV Branch was the largest MCAD
user group at Marshall. Documents prepared by the IEC Project Manager revealed
that the IEC Project did not begin to identify stakeholder requirements until
September 2005, approximately 2 months after ProE was selected as the standard
MCAD software for new flight design projects. NPR 7150.2, paragraph 3.1, states,
“requirements are based on customer, user, and other stakeholder needs and design
                                                                                         14



   and development constraints. . . . It is important that there is ongoing customer
   validation of the requirements to ensure the products meet the customer needs.”
   Paragraph 3.1.1.2 requires that each project “identify, develop, document, approve,
   and maintain software requirements based on analysis of customer and other
   stakeholder requirements and the operational concepts.” We contend that Marshall
   increased program risks by establishing PTC’s MCAD as the standard without
   identifying and fully understanding user requirements, which could result in
   translation and integration problems.

   As a result, we still believe that the Marshall Center Director should direct the
   Marshall Director of Engineering to suspend all activities associated with the
   archiving and migration of data from Teamcenter to Windchill and allow design
   engineers to continue to use UGS PDM and MCAD software (at current version
   levels) for new projects, pending completion of actions in response to
   Recommendation 2.

Recommendation 2. The Marshall Center Director should direct the Marshall Director
of Engineering to conduct the required assessment and risk analysis of the Windchill and
ProE implementation, in accordance with NPR 7150.2 and NPR 8000.4, and incorporate
OCE guidance for the selection of MCAD tools for major space systems.

   Management’s Response. The Associate Director, Marshall Space Flight Center,
   nonconcurred with the recommendation. She stated that the use of the MCAD tools
   at Marshall, including ProE, was well established and understood, having been in use
   for more than 5 years and predating the selection of Windchill. The Associate
   Director further stated that Windchill risks had been assessed prior to our
   recommendations and additional assessments were not warranted, adding that further
   risk analysis of the Windchill and ProE implementation is not required as the
   requirements in NPR 7150.2 and NPR 8000.4 were not applicable. The Associate
   Director stated she will send a reminder to the appropriate official at Marshall to use
   NPR 7150.2, NPR 8000.4, and guidance from OCE for the selection of MCAD tools
   for major space systems.

   Evaluation of Management’s Response. Management’s planned action is not
   responsive to the recommendation. We agree that Windchill’s risk was assessed—
   one of three PDM products assessed by the IEC Project in April 2002—but not in
   conjunction with ProE. The ProE selection was made approximately 3 years later and
   without the required risk assessment. Therefore, we believe that the implementation
   of the combined tools of Windchill and ProE should be assessed.

   Management contends that NPR 7150.2 does not apply because “the PTC PDM
   development activity began in 2002 and [M]CAD tools were in use prior to the PTC
   PDM selection.” However, we noted that the 2002 PDM assessment and decision did
   not include the selection of a standard MCAD tool. In fact, the 2005 ProE MCAD
   selection marked the beginning of a new software acquisition, deployment, and
   maintenance activity. Since the effective date of NPR 7150.2 is September 27, 2004,
                                                                                      15



and documentation provided by Marshall engineering officials shows that ProE was
selected in July 2005 as part of a separate business decision, NPR 7150.2 is
applicable to the ProE standardization decision. Paragraph 2.1 covers software
created or acquired by or for NASA, including commercial off-the-shelf (COTS),
Government off-the-shelf (GOTS), modified off-the-shelf (MOTS), open source,
reuse, legacy, and heritage software. In addition, NPR 7150.2 provides specific
requirements for the acquisition and integration of software used in support of human
space flight systems. “Support” may include detailed engineering drawings and
modeling of physical components of systems that support human space flight. For
example, flight safety decisions, including Flight Readiness of the Space Shuttle,
depend on these MCAD tools for evaluating safety critical in flight contingencies.
Therefore, it is clear that MCAD software support is directly linked to human space
flight. Paragraph 2.3 states that NPR 7150.2 shall be applied to software
development, maintenance, operations, management, acquisition, and assurance
activities after its effective date of issuance, September 27, 2004.

A formal analysis of risks would have addressed some of the issues raised by some of
the stakeholders. For instance, EV design engineers evaluated the capabilities of
PDM and MCAD software of both UGS and PTC in an informal trade study during
October 2006. Study results showed that Windchill had difficulties managing newer
versions of UGS MCAD models. The same study showed that PTC’s Windchill and
ProE had limited or no capabilities in 10 of the 20 requirements criteria evaluated,
while UGS’s Teamcenter met all 20 evaluated criteria. The study also noted that
Windchill and PTC’s ProE had limited or no capabilities in the four requirements
areas considered “Large Vehicle Systems Integration and Engineering
(SE&I)/Development Show Stoppers.” NPR 7150.2, paragraph 3.1.1.2, requires that
each project “identify, develop, document, approve, and maintain software
requirements based on analysis of customer and other stakeholder requirements and
operational requirements.”

OCE guidance, “Information for the Selection of Mechanical Computer-Aided
Design (MCAD) Tools,” states that many factors must be evaluated when selecting
an MCAD tool, including complexity, interoperability, security, training, and
intended use. Priorities have to be weighed to determine the most important factors
on which to base a tool selection decision. Ultimately, an assessment of all
appropriate factors will lead to cost and risk determinations that can help establish an
overall value of the product under consideration.

NPR 8000.4, paragraph 2.2, outlines the evaluation process for identifying the risks
(technical and programmatic) specific to a project. Project managers should identify
individual risks and clearly describe those risks in terms of both the undesirable event
the risk presents as well as the consequences of that event to the project. Project
managers should develop a statement of risk for each identified risk. Risks should be
summarized, and actions taken to mitigate or accept the risk should be documented.
Therefore, it is imperative that a formal assessment and risk analysis be conducted for
any MCAD software being considered as a standard for new flight system designs.
                                                                                       16



   As a result, we still believe that the Marshall Center Director should direct the
   Marshall Director of Engineering to conduct the required assessment and risk analysis
   of the Windchill and ProE implementation, in accordance with NPR 7150.2 and
   NPR 8000.4, and incorporate OCE guidance for the selection of MCAD tools for
   major space systems.

We consider the recommendations to be unresolved. We request that Marshall reconsider
its position and provide additional comments on both recommendations in response to
this final memorandum by August 24, 2007.

We appreciate the courtesies extended to the staff during our ongoing review. Should
you have any questions or would like to discuss this issue further, please call
Mr. Vincent M. Scott, Procurement Director, Office of Audits, at 202-358-0546 or
Mr. Larry T. Chisley, Project Manager, at 321-867-4073.


    signed

Evelyn R. Klemstine

2 Enclosures

cc:
Chief Engineer
Chief Information Officer
Deputy Center Director, Marshall Space Flight Center
Associate Center Director, Marshall Space Flight Center
Director of Engineering, Marshall Space Flight Center
Manager, Marshall Engineering Programs and Systems Office
Manager, Marshall Integrated Engineering Capabilities Project
                             Scope and Methodology
We performed this review from October 2006 through January 2007. To accomplish our
work, we visited Marshall and met with the Deputy Center Director and responsible
officials in the Engineering Directorate for MCAD software selection and
implementation. This review was performed in accordance with generally accepted
government auditing standards.

We evaluated and compared the process for selecting MCAD software tools at Marshall
with NASA engineering procedural requirements included in
   •   NPR 7150.2, “NASA Software Engineering Requirements,” September 27, 2004,
       which provides the minimal set of requirements established by the Agency for
       software acquisition, development, maintenance, operations, and management;
   •   NPR 8000.4, “Risk Management Procedural Requirements,” April 25, 2002,
       which provides the requirements and information for applying risk management
       to programs and projects, as required by NPR 7120.5C; and
   •   NPR 7120.5C, “NASA Program and Project Management Processes and
       Requirements,” March 22, 2005.

We also reviewed documentation included in
   •   IEC-Presentation-Systems Tools Analysis and Selection of PDM, April 16, 2002;
   •   IEC-Integrated Engineering Capability MCAD Transition Overview,
       September 26, 2005;
   •   IEC-Overview of Presentation, July 12, 2006; and
   •   Marshall Engineering Management Council Minutes, MCAD software transition
       and migration plans, briefings, management presentations, e-mails, and policies
       and procedures related to the selection of MCAD software tools.

Computer-Processed Data. We did not use computer-processed data to perform this
review.

Internal Controls. To assess whether internal controls were adequate, we reviewed
documentation used to identify customer, user, and other stakeholder needs in the
development of software and operational requirements. We also reviewed documentation
identifying technical and programmatic risks associated with the project to ensure PDM
and MCAD software tools selected as the standard for space exploration vehicle design
were assessed and whether risks were identified and analyzed in accordance with
NPR 7150.2, “NASA Software Engineering Requirements,” September 27, 2004, and
NPR 8000.4, “Risk Management Procedural Requirements,” April 25, 2002. We found
that Marshall had assessed three PDM products and that the assessment resulted in
selection of PTC’s Windchill as the primary PDM for Marshall engineering. However,
we determined that the selection of PTC’s ProE as the standard MCAD for new flight

                                                                            Enclosure 1
                                                                            Page 1 of 2
system designs was made without an assessment or risk analysis. We also determined
that the selection process did not take into account customer and other stakeholder and
operational requirements.

Prior Coverage. During the last 5 years, the NASA OIG has issued one report of
particular relevance to the subject of this report: “NASA’s Acquisition Approach
Regarding Requirements for Certain Engineering Software Tools to Support NASA
Programs” (Assignment No. S-06-012-00, August 23, 2006). Unrestricted reports can be
accessed over the Internet at
http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html.




                                                                              Enclosure 1
                                                                              Page 2 of 2
Management’s Comments




                        Enclosure 2
                        Page 1 of 7
              Page 2




Enclosure 2
Page 2 of 7
              Page 2




              Page 4




Enclosure 2
Page 3 of 7
              Page 5




              Page 5




Enclosure 2
Page 4 of 7
              Page 5




              Page 5, last
              paragraph




              Page 6




Enclosure 2
Page 5 of 7
Enclosure 2
Page 6 of 7
Enclosure 2
Page 7 of 7
